Department of Health— and
                      -.——_         -Human
                                      - —------   se~”rPc
                                                  ---  .
                                                       .Ww”




        OFFICE OF
   INSPECTOR GENERAL




       JOBS MONITORING AND
      TECHNICAL ASSISTANCE:
        HEADQUARTERS’ ROLE




                  ‘@   SERVICE$.,




                 AUGUST 1993

                     OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, as amended, is to protect the integrity of the Department of Health and Human
Services’ (HHS) programs as well as the health and welfare of beneficiaries served
by those programs. This statutory mission is carried out through a nationwide
network of audits, investigations, and inspections conducted by three OIG operating
components: the Office of Audit Services, the Office of Investigations, and the
Office of Evaluation and Inspections. The OIG also informs the Secretary of HHS of
program and management problems and recommends courses to correct them.

                         OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Semites (OAS) provides all auditing services for HHS,
either by conducting audits with its own audit resources or by overseeing audit work
done by others. Audits examine the performance of HHS programs and/or its grantees
and contractors in carrying out their respective responsibilities and are intended
to provide independent assessments of HHS programs and operations in order to reduce
waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.

                         OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and

administrative investigations of allegations of wrongdoing in HHS programs or to HHS

beneficiaries and of unjust enrichment by providers. The investigative efforts of

01 lead to criminal convictions, administrative sanctions, or civil money

penalties. The 01 also oversees State Medicaid fraud control units which

investigate and prosecute fraud and patient abuse in the Medicaid program.


              OFFICE OF EVALUATION AND INSPECI’IONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management

and program evaluations (called inspections) that focus on issues of concern to the

Department, the Congress, and the public. The findings and recommendations

contained in these inspection reports generate rapid, accurate, and up-to-date

information on the efficiency, vulnerability, and effectiveness of departmental

programs. This report was prepared in the Kansas City regional office under the

direction of James H. Wolf, Regional Inspector General. Project staffi


REGION
                                                    HEADQUARTERS

Hugh Owens, Project Leader
                                Ruth Folchman
Perry A. Seaton
                                           Mark Krushat
Hope Hartshorn


For additional copies of this repo~
 please contact the Kansas City Re@onal Office
at (816) 426-5959.

Department of Health and Human Services

        OFFICE OF
    NSPECTOR GENERAL




      JOBS MONITORING AND
     TECHNICAL ASSISTANCE:
       HEADQUARTERS’ ROLE




          AUGUST   1993   OEI-07-92-00380
              EXECUTIVE                           SUMMARY

PURPOSE

To evaluate the policies and procedures established by the Administration for
Children and Families (ACF) Headquarters for monitoring and providing technical
assistance to States for -the Job Opp&tunities and Basic S~lls T;aining (JOBS)
program.

BACKGROUND

The Family Support Act of1988, Public Law 100-485, created the JOBS program for
recipients of Aid to Families with Dependent Children (AFDC)..       . It establishes a
comprehensive framework and progr~mmatic structure for Federal and State efforts to

help welfare recipients become self sufficient. Included are provisions related to job

skills training, education, job readiness activities, job placement/job development, child

care, transportation, and other supportive services.


The ACF monitors States’ JOBS programs and provides them with policy and

procedural guidance. The ACF Headquarters develops guidance and provides some

technical assistance for regions and States. It also directs and oversees the technical

assistance contract. The regional offices serve as the principal point of contact for the

States. In this role, they monitor JOBS program operations, review and approve State

Plans, and provide technical assistance to States.


METHODOLOGY


In recognition of the differing roles and responsibilities of ACF Headquarters and

regional office components, we are reviewing ACF oversight of the JOBS program in

two phases. Phase one, which is completed, involved a review of ACF Headquarters.

Phase two, currently in progress, will review ACF regional offices and State agencies.


In phase one, we researched the legislative history of the JOBS program by reviewing

the Federal law and regulations and relevant background material. In addition, we

reviewed the written policies, processes, and products developed by ACF

Headquarters for monitoring and providing technical assistance in the JOBS program.

We conducted an on-site visit at ACF Headquarters and interviewed members of the

Agency’s staff responsible for the following key areas: field reviews, on-site visits, State

Plans, data collection, and the technical assistance contract. We also interviewed

members of Washington, D. C.-based advocacy organizations that have an active

interest in the JOBS program.





                                              i
The ACF and the States faced a number of challenges in implementing the JOBS
program.This program requires active coordination betieen the Department of
Health and Human Services (HHS), the Department of Education, and the
Department of Labor. The States had varying levels of experience in administering a
job training program for AFDC recipients. In addition, ACF and the States had
limited resources and funding available. Furthermore, the program went into effect
less than one year after enactment, leaving ACF and the States very little lead time
for implementation.

Despite these challenges, ACF released the final regulations within the one year time
period mandated by Congress. In addltlon,
                                      ~“   it provided guidance and technical
assistance to the States.

We recognize these efforts and the extraordinarily difficult circumstances under which
ACFlabored.      Wealsorealize    thatwedo   nothave acomplete picture of ACF
activities since we have not completed phase two of the study. Nevertheless, we
identified some weaknesses which we believe merit immediate attention. We offer
findings and recommendations regarding improvements that need to be made now
that the flurry of initial implementation is over and the JOBS program is beginning to
stabilize and mature. These are in the areas of monitoring, technical assistance,
program guidance, and management information.

MONRORING

The ACF Headquarters’    guidance for field reviews and data collection has been
inadequate.

The ACF conducted field reviews to obtain information on States’ activities during the
first two years of program implementation.    However, we found that review guides
were not released timely to the regions and field review reports were not released
timely to the States. The ACF Headquarters has not issued guidance to the regional
offices to provide the States with a comment period prior to the release of final field
review reports; to require States to submit corrective action plans; or to require
regional offices to follow-up with States on field review findings and recommendations.

Reviews in FY’s 1990 and 1991 examined supportive services, child care, data
collection and systems as well as JOBS. However, ACF has not used the field review
process to monitor the States for compliance with their State Plans. It felt that it was
inappropriate to do so during the early stages of implementation when it was more
important to simply get a feel for what was happening at the State level and ensure
that instructions and guidance were understood. Now that this stage is over, however,
we believe that a more systematic method of compliance monitoring is needed.




                                            ii



..
With respect to data collection, we found that ACF has not established a closure date
for the submission of States’ data and is not receiving State data timely.

TECHNICAL ASSIST~CE

The ACF did not reap the full benefits that could have been obtained from the
technical assistance contractors.

The ACF chose to use contractors to provide technical assistance to the States. While
these contractors did provide valuable training and assistance, they did not address all
of the subjects requested by the States, and some of the materials were not
disseminated timely or to all the appropriate audiences.

PROGRAM GULZMNCE

Some action transmittals and information memoranda       were not disseminated   in a
timely fashion.

JW4.N.AGEMENTINFORhL4TION

The ACF Headquarters has not systematically validated or analyzed information from

field reviews, State Plans, and data collection systems; nor has it routinely

disseminated management information to Congress, Federal and State managers,

policy makers, and advocacy groups.


RECOMMENDATIONS


Specifically, to address the problems identified above, ACF should:


       develop adequate processes to monitor States for compliance with their State
       Plans and JOBS program requiremen~,

       review and clar@ the purpose of existing monitoring initiatives and strengthen
       the policies and procedures guiding their administratio~

         In partiadq    with respect to field reviews:

          .�   provide field review guides to the regional offices by the second quarter
               of the fiscal year to allow sufficient lead time to schedule, conduct, and
               complete these reviews;

          �	
               ensure that field review reports to the States are prepared and released
               in draft for their comment within 90 days of the field review visit;




                                              ...
                                              111

        .�    provide guidance to the regional offices on requiring States to submit
              corrective action plans to address problem areas identified during field
              reviews; and

         �
              provide guidance to the regional offices to ensure that problem areas
              identified in the field reviews are being corrected.

        Wtih respect to data collection:

         �	
              continue to work closely with regional offices and the States to ensure
              the accurate, timely, and complete submission of data; and

         �
              establish deadlines for the correction and finalization of States’ data.

      systematically reassess the specific needs of States for technical assistance and
      provide a timely and appropriate response;

      ensure that action transmittals and information memoranda       conform with
      Federal law and regulations and Agency policie~

      allow 60 to 90 days lead time, whenever possl%le, for the effective dates of
      action transmittals and information memorand~,

      develop a systematic analysis plan for JOBS program information available
      from field reviews, State Plans, and data collection system and

      disseminate program information and data analysis through timely reports on
      varied program elements to Federal and State managers and policy makers.

AGENCY COMMENTS            AND OIG RESPONSE

The ACF has agreed with most of our recommendations and has outlined specific
actions it has planned or already taken to implement them. Their one major
resonation concerns monitoring. They believe that it would be prudent to delay a
final decision on these findings and recommendations until the second phase of the
inspection--Regional Offices and States’ Perspectives--has been completed.

We continue to believe that our findings and recommendations represent concerns
that should be addressed in Headquarter’s operation of the JOBS program.
Nevertheless, we accept ACF’S suggestion to delay final action on monitoring until the
second phase of our study is done.

The ACF also expressed concerns about some of our findings and wished to
emphasize numerous positive actions they have taken on matters addressed in our
rep”ort. We wish to emphasize that we agree that ACF has taken aggressive action to
implement the JOBS program. We highlighted this in the Executive Summary and in


                                             iv
the introduction to our findings. We have provided some additional examples of their
actions in this final version of the report. Space and presentation style simply do not
allow us to enumerate everything which ACF has done. For more examples, we invite
the reader to read ACF comments, which are provided verbatim in Appendix D.
However, it should be noted that the purpose of this report was to point out areas
needing further attention. Such areas for improvement inevitably arise no matter how
intensively management attempts to deal with complex problems.

We made other modifications to the report in response to ACF’S comments.        Again,
the full text of their comments is contained in Appendix D.

We understand that ACF has recently established several task forces, one of which is
to address monitoring and technical assistance. We believe that this is a positive step
and hope that the information in this report will be useful to the task force addressing
these functional areas.




                                            v
                         TABLE                    OF CONTENTS
                                                                                                                      PAGE

EXECUTIVESUMMARY


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


   �
       Monitoring       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


   �
       Technical Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


   �
       Program Guidance               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


   �
       Management         Information           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATIONS                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES


&Fiscal       Years 1990 -1991 Field Reviews                      . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

B:	 Submission of Quarterly Participation Rate Statistical Report
    (FSA-103) For FY’s 1991 - 1992 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..                      B-l

CDelayed         Action Transmittals              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-1


D: Agency Comments                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l
                         INTRODUCTION

PURPOSE

To evaluate the policies and procedures established by the Administration for
Children and Families (ACF) Headquarters for monitoring and providing technical
assistance to States for the Job Opportunities and Basic Skills Training (JOBS)
program,

BACKGROUND

l%eJOBSRqyam

The Family Support Act of1988, Public Law 100-485, created the JOBS program for

recipients of Aid to Families with Dependent Children (AFDC). Its purpose is to

promote the self sufficiency of welfare recipients through a broad range of

employment, trainin”g, education, and support services. The States must offer job skills

training, education, job readiness activities, job placement/job development, child care,

transportation, and other supportive services. They must also offer at least two of the

following optional services: job search, on-the-job training, work supplementation, or

community work experience. Educational setices include high school or equivalent

education, basic and remedial education to achieve a basic literacy level, and

education for individuals with limited English proficiency.


The Challqp     of Program Implementation

The JOBS program is markedly different from its predecessors.      The ACF and the
States faced a number of challenges in implementing it.

The program, administered by ACF, requires active coordination among the
Department of Health and Human Services (HHS), the Department of Education,
and the Department of Labor.

The States had varying levels of experience in administering a job training program for
AFDC recipients. Some of the States had existing job training programs which they
had to convert to meet the JOBS program requirements, which included education as
a component. Others had little or no recent experience in administering an education
and job training program for welfare recipients. Some States were required to create
new systems or to re-design their existing systems during the period when systems and
data collection rules and policies were being formulated. Overall, ACF and the States
had limited resources and funding available.

Under the legislation, States could implement their program as early as July 1, 1989 or
as late as October 1, 1990. Fifteen States elected to start on July 1, 1989, prior to the
issuance of the final regulations. Even those who chose to wait had at most two years


                                            1
after enactment of the law to implement their programs. Thus, ACF and the States
had very little lead time. Despite these challenges, ACF released the final JOBS
regulations within the one year time period mandated by Congress.

ACF Head@atiem and Re@nal        Ojjice OvernightReqxmsibilitie.s

The ACF monitors States’ JOBS programs and provides them with policy and

procedural guidance. The ACF Headquarters develops guidance for and directs the

nationwide administration of the JOBS program. It provides some direct technical

assistance to regions and States and oversees the technical assistance contract,


The ACF regional offices serve as the principal point of contact for the States. They

monitor JOBS program operations and review and approve State Plans. They also are

responsible for providing some technical assistance. The roles and responsibilities of

ACF Headquarters and regional offices are explained in greater detail in the

August 27, 1991 edition of the Federal Register (56 FR 42332 No. 166) under ACF

Functions and Delegations of Authority.


METHODOLOGY


In recognition of the differing roles and responsibilities of ACF Headquarters and

regional office components, we decided to review the JOBS program in two phases.

We did this to more accurately reflect the overall performance of each component in

providing monitoring and technical assistance for the JOBS program,


Phase one, which is completed, involved a review of ACF Headquarters.      Phase two,

currently in progress, will review ACF regional offices and State agencies involved in

the JOBS program. Our review of ACF regional offices will focus on their roles and

responsibilities in monitoring the JOBS program and providing technical assistance to

States. Our review of the States will focus on their perspectives of the monitoring and

technical assistance received from ACF.


In phase one, we researched the legislative history of the JOBS program by reviewing

the Federal law, regulations, and relevant background material. In addition, we

reviewed the policies, processes, and products developed by ACF Headquarters for

monitoring and providing technical assistance in the JOBS program. This included a

review ofi manuals, transmittals, and memoranda; field review documentation;

statistical data reported by the States; analyzed data; and contract/performance

indicators for the technical assistance contractors.


We examined ACF Headquarters’ role in monitoring and providing technical

assistance to regional offices and States for the JOBS program. We conducted an

on-site visit at ACF Headquarters and interviewed members of the Agency’s staff

responsible for the following key areas: field reviews, on-site visits, State Plans, data

collection, and the technical assistance contract. We interviewed staff from the office

of the Assistant Secretary for Planning and Evaluation. We also intemiewed members



                                             2
-of Washington, D. C.-based advocacy organizations that have an active interest in the ,
 JOBS program. These included the National Governors’ Association, the American
 Public Welfare Association, and the Center for Law and Social Policy.

Our review was conducted in accordance with the QuuMy Stan&rd3 for In.specfions
issued by the President’s Council on Integrity and Efficiency.




                                             3

                                 FINDINGS


The complexity of the JOBS program, the traditional difficulties that accompany
implementation of a new program, and the budget constraints that are a mainstay in
today’s economy make administering the JOBS program a constant challenge. We
recognize the extraordinarily difficult circumstances under which ACF Headquarters
labored and are well aware of its success in getting the complex regulations issued
timely and of the various forms of technical assistance and guidance which it provided
to the States, either directly or through its regional offices. We realize that we do not
have a complete picture of ACF activities since we have not completed phase two.

Nevertheless, we identified weaknesses in national guidance and oversight which we
believe merit immediate attention. We offer findings and recommendations regarding
improvements that need to be made now that the flurry of initial implementation is
over and the JOBS program is beginning to stabilize and mature. These weaknesses
are in the areas of monitoring, technical assistance, program guidance, and
management information.

MONITORING

The ACF Headquarters’     guidance for field reviews and data collection has been
inadequate.

The ACF performs the monitoring function of the States primarily through on-site
field reviews. These are conducted by teams composed of ACF Headquarters and
regional office personnel. Monitoring is also performed through analysis of data that
States submit to ACF Headquarters and regional offices.

                                       Field reviews

The ACF conducted field reviews of 13 States in Fiscal Year (FY) 1990 and of the
remaining States in FY 1991. These reviews covered child care, supportive services,
systems, and data collection as well as JOBS. In FY 1992, ACF conducted field
reviews covering the program operations of 18 States. The principal focus of these
reviews was to describe and evaluate significant changes in program operations and to
obtain a sense of client flow through the JOBS program since the previous review.
According to ACF staff responsible for field reviews, “interesting practices” identified
in the field review process are shared with the regions and States. However, we did
find some problems with the reviews.

   �
       Field review guides were not released timely to the regions.

       The final field review guides for both FY 1991 and FY 1992 were released in
       late spring, which limited the time available for the regions to conduct and
       complete required field review activities.


                                             4

    An ACF work group convened in February 1992 for the purpose of designing
    the field review guide for FY 1992. A draft version of this guide was provided
    to the regions in March 1992. The final field review guide was released in
    June 1992. The ACF Headquarters stated that regions had the option of using
    the draft guide to conduct their field reviews. However, many regions deferred
    their field reviews until after the issuance of the final field review guide.

    The field review guides for FY 1993 were released in draft to the regions in
    December 1992. As of February 2, 1993, these had not been released in final.

�
    Field review reports were not rekz.wd time~ to the States.

    The ACF Headquarters has not established uniform national time limits for the
    preparation and release of field review reports. In FY 1991, the average
    elapsed time from the field review visit to the release of the field review reports
    was over seven months. Two field review reports were released after 17 months.
    At the time of our review in September 1992, 6 States had not received their FY
    1991 field review reports, a time lapse of more than 12 months. By February
    1993, ACF had released four of these FY 1991 reports. The two outstanding FY
    1991 field review reports were for Kansas and Nebraska. This delay adversely
    affects the usefulness of these reports to States. (Appendix A has a complete
    listing of field reviews conducted and the report status for FY’s 1990- 1991).

    At the time of our review in September    1992, no final FY 1992 field review
    reports had been released.

    The ACF Headquarters does not have readily available the dates that regional
    offices release final field review reports. The ACF Headquarters’ staff stated
    that, under the Agency’s decentralized structure, Regional Administrators are
    responsible for the final approval and release of these reports.

�
    Regional ofices were not directed to provh!e the States with a comment period
    prior to the release of final field review repr&.

    The ACF Headquarters has not provided guidance to the regional offices on
    releasing draft reports to the States for their review and comment. Under
    ACF’S decentralized structure, final field review reports are released by ACF
    Regional Administrators upon completion of ACF Headquarter’s internal
    review of the report content for “accuracy and sensitivity.” The ACF staff
    informed us that States have the opportunity to comment on final reports.
    However, ACF does not solicit these comments.




                                         5

  �	
       Re@mal oj@e.s were not directed to reqtie    States to submit comective action
       plans.

       The ACF Headquarters has not provided guidance to the regional offices on
       State submittal of corrective action plans. The field review process has
       identified problem areas which merit States’ attention. Currently, there are no
       legal, regulatory, or Agency policies which require the States to respond to
       these problem areas.

  �	
       Regional ofices were not directed to follow-up m“th States on jiekl review @dings
       and recommendah”ons.

       The ACF Headquarters does not require the regional offices to follow-up with
       States to determine if they have addressed the problems or weaknesses
       identified in the field review process. Some regional offices may conduct
       follow-up as part of their overall JOBS program oversight, but there is no
       assurance that this will be done timely or even done at all.

  �
        l%e regions were not directed to use the fieki review process to monitor the States
       for compliance with their State Pkms.

       Field review guides, which are the primary means of monitoring JOBS, do not
       specifically address the review of the States’ and political subdivisions’
       compliance with State Plan provisions. Field reviews are for “fact finding”
       purposes and are not used as a monitoring tool for compliance. However,
       when the review team identified problem areas while conducting past field
       reviews, the issues were often included in the field review report.

       The ACF staff felt it was inappropriate to monitor for compliance during the
       early stages of implementation when it was more important to understand what
       was happening at the State level and ensure that instructions and guidance
       were understood. Now that this stage is over, however, we believe a more
       systematic method of compliance monitoring is needed.

                                      Data collection

States are required by law, regulation, or administrative guidance (in the form of
“action transmittals”) to submit data to ACF on various aspects of the JOBS program.
However, there are no penalty mechanisms to enforce JOBS program reporting
requirements. The ACF Headquarters’ staff stated that the Agency is applying “gentle
pressure” on the States to get them to comply with all reporting requirements. The
regional offices contact those States that are having difficulty meeting the deadlines for
data submission. Once these States have been contacted, the regional offices offer
assistance and guidance, if necessary, to ensure timely submission of data. The ACF
Headquarters data branch is responsible for providing technical assistance in this area.



                                              6

�
    l’he ACF k not receiving State data bzely.

    Quarter& Pa~”cipation Rate Stathtical Repoti (FSA-103)

    Action Transmittal 90-11 provided conflicting instructions concerning the dates
    that the Quarterly Participation Rate Statistical Reports (FSA-103) are due in
    ACF Headquarters and regional offices. To compensate for conflicting due
    dates, we allowed a 30-day grace period from the specific dates mentioned in
    the action transmittal when determining the timeliness of these reports. Even
    with this allowance, over one third of the States and political subdivisions have
    not consistently submitted Quarterly Participation Rate Statistical Reports
    (FSA-103) timely in FY 1991 and FY 1992 (Appendix B).

    JOBS l?rogram Participation Data Collection Information (FSA-108J

    All States and political subdivisions are required to electronically submit the
    monthly JOBS Program Participation Data Collection Information (FSA-108).
    The first submission was due by December 15, 1991 for the sample month of
    October 1991. The Code of Federal Regulations [45 CFR 250.80(a)(l)],
    requires States and political subdivisions to electronically submit data no later
    than 45 days after the end of the sample month. Action Transmittal 91-17
    improperly extended the submission due date for the JOBS Program
    Participation Data Collection Information (FSA-108) report to 60 days.
    However, some States are not meeting either time frame for the submission of
    JOBS Program Participation Data Collection Information (FSA-108) reports
    (Chart 1).

                                                     Chart 1
       The     Number              of     States        Not   Reporting               IWA-108            Data
                             for        October          1991   - August               1992
                                            Status     as   of November   1992
       30,
       28

       26

       24

       22

       20

       18

       16

       14

       12

       10

        8

        6

        4

             10)91   ‘ “-”    12)91       “ “--      02)92    “u’‘-   04)92   ‘-’“-    06)92    u ‘‘‘-    08}92

                                                            ReportMonth




                                                        7

    November 1992 data furnished by ACF Headquarters      established that of the
    50 States and the District of Columbia:

      �	
           Six (Delaware, Minnesota, Missouri, Nebraska, New Hampshire, and
           Pennsylvania) had not electronically submitted any of the JOBS Program
           Participation Data Collection Information (FSA-108) to ACF
           Headquarters;

      �	
           Seven (Alabama, Connecticut, Indiana, Ohio, Rhode Island, Tennessee,
           and West Virginia) were 7 to 11 months late submitting some or all of
           their reports;

      �	
           Three (District of Columbia, Montana, and South Dakota) were four to
           six months late submitting some or all of their reports;

      �	
           Eight (California, Georgia, Kansas, Maryland, Michigan, New Jersey,
           New York, and Oklahoma) were up to three months late submitting
           some or all of their reports;

      �	
           Three (Illinois, Massachusetts, and Mississippi) had submitted data for
           all periods except the most recent report month (August 1992); and

      �
           The remaining 24 were current with their data reports.

    Implementation of (?uarterly Report of Ztle IV-F Bvenditures Unifonm Repoti”ng
    Requirements (ACF-332)

    According to one ACF report, 24 States were late submitting Implementation
    of Quarterly Report of Title IV-F Expenditures, Uniform Reporting
    Requirements (ACF-332) reports for the first and/or second quarter of
    FY 1992.

    ChiL.iCare Reporting Requ irements (A CF-115}

    Based upon information contained in an ACF report, 33 States were late
    submitting Implementation of Child Care Reporting Requirements
    (ACF-115) reports for the first and/or second quarter of FY 1992.

�
    T%eACF Headqumten has not established a closure date for the submiwion of
    States’ data.

    Data for the implementation of Quarterly Participation Rate Statistical Report
    (FSA-103) is due on a quarterly basis. The data that was due for the first
    quarter of 1991 (in February 1991) was still being revised by some States in
    April 1992. The data that was due for the first quarter of 1992 (in February
    1992) was still being revised by some States in August of 1992 (Appendix B).


                                        8
      Data for the JOBS Program Participation Data Collection Information
      (FSA-108) is due 60 days after the sample month. Four States submitted
      revisions to the October 1991 data in August 1992, eight months after the
      report due date.

Additional discussion of matters related to data collection are contained in the

Program Guidance and Management Information sections that appear later in this

report.


TECHNICAL     ASSISTANCE


The ACF provided technical assistance and training to regional office staff through

conferences held in FY’s 1989, 1991, and 1992. Shortly after the publication of the

final regulations in the Fall of 1989, ACF held a major conference for over 700

Federal, State, and Tribal officials to provide operational and policy guidance for the

JOBS program. In addition, ACF Headquarters’ staff visited every region in the

summer of 1990 to train staff on reviewing State Plans, provided pre-printed guides of

the State Plan to the States, and issued numerous action transmittals and information

memoranda. Further, ACF Headquarters retained technical assistance contractors

specifically for the purpose of providing technical assistance and guidance to the

States.


The field reviews and States’ data were used to identify technical assistance needs.

The HHS, in conjunction with the Departments of Labor and Education, provide

technical assistance primarily through the use of contractors. In 1990, the three

Departments entered into a three year, six million dollar technical assistance contract

with the National Alliance of Business, Maximus, and Pelavin Associates to help States

and localities operate effective and efficient JOBS programs. Contract funding is

apportioned among the three. All deliverables developed by the technical assistance

contractors had to be reviewed and cleared by the three Departments before being

distributed to States.


The ACF awarded the technical assistance contract in August 1990. The contract was

written to be an “evolving contract to address States’ needs.” A November 1990

memo to ACF Regional Administrators spelled out the three tasks assigned to the

technical assistance contractors. These tasks were: assistance to program managers,

assistance to providers, and systems assessment and information dissemination. After

consultation with the Departments of Labor and Education, the first two tasks were

modified to reflect the following priority areas: program design, coordination,

marketing, and agency cultural/structural change.





                                           9

The ACF did not reap the full benefits that could have been obtained from the
technical assistance contractors.

As indicated above, ACF and the technical assistance contractors initiated important
and useful training and guidance. However, the full potential of available resources
was not realized.

  �
       The techrkal assistance contraction did not address the fowpriody     areas timely.

       The contractors were to focus on the four priority areas listed above for the
       first six to nine months of their contract. Additional areas were to be covered
       in subsequent years. As shown below, the contractors did not cover all four of
       these priority areas during the first year of their contract. The only additional
       area that has been addressed is literacy.

       One of the four priority areas was addressed in FY 1991, when the technical
       assistance contractors conducted six regional workshops on program design.
       The remaining priority areas that were to be covered in the first six to nine
       months of the contract were not addressed until FY 1992. This was
       accomplished through five regional workshops covering coordination,
       management, and agency cultural change; three regional workshops on
       marketing; and a national training conference on agency cultural change,

  �	
       7%e technical &tance     contraction dii not address all of the subjecti the Sates
       requested

       As noted above, the contractors were to provide technical assistance in addition
       to the four priority areas. Therefore, they queried the States in FY 1990 and
       FY 1991 to determine the States’ training needs. The States responded that
       they needed technical assistance in the areas of child care, teen parents,
       systems, and data.

       The ACF Headquarters’ Project Officer responsible for the technical assistance
       contract stated that the technical assistance contractors did act as facilitators for
       a session on child care for Federal staff. However, the contractors provided no
       training for the States on the subject. The ACF purposely elected to address
       child care rather than have the contractors do it. One means of addressing this
       was through a child care conference held in December 1992.

       With respect to teen parents, the contractors devoted one session to this topic
       during the Program and Component Design workshops held in FY 1991.
       Beyond this, ACF indicates it addressed teen parents through the field review
       process, specific policy guidance, and other means.




                                            10

      The Project Officer considered systems and data training to be a responsibility
      of ACF Systems and Data branches since Agency expertise was available.
      Therefore, the contractors did not conduct this training.

      The contractors had very little involvement in providing technical assistance for
      these areas as ACF chose to address three of the four on their own. However,
      the contractors have scheduled additional workshops and on-site forums for
      FY 1993 that relate to literacy.

  �
      7he technical assktance materials were not diwrniiuzted t$ectively.   l%is limited
      their u@hlneM to States.

      The technical assistance contractors sent a memorandum to State agencies in
      December of 1990 stating that they were working on a General Systems Design
      for the JOBS Automated System and a Data Element Dictionary. At that time,
      while all States had implemented their JOBS program, several States were
      continuing to design and implement their JOBS reporting and data systems.
      The General Systems Design and Data Element Dictionary were not published
      and distributed to all States until August 1991.

      In May of 1991, the contractors promised that a Coordination Handbook would
      be completed by the end of the year. This handbook was designed to facilitate
      the coordination between Federal, State, and local entities involved in the
      JOBS program. The Coordination Handbook was not distributed until
      November 1992.

      The technical assistance contractors have concentrated most of their efforts on
      the development of technical assistance workshops and workshop materials.
      The handouts and workbooks developed for the workshops were given to all
      attenders. Personnel from non-attending States could request copies of the
      workshop materials. However, ACF did not routinely send this material to
      non-attenders, due to the expense to the agency and because non-attenders
      may not have been able to fully understand and utilize the information without
      the workshop presentations.

PROGRAM      GUIDANCE

Given the magnitude of the implementation requirements and the fact that States had
the option to begin JOBS programs within the first year, ACF faced a formidable task
in issuing the necessary guidelines to them. It did issue the implementing regulations
within one year. The ACF also used action transmittals and information memoranda
to communicate Agency policies, procedures, and requirements to regions and States.
To its credit, 42 of the 53 action transmittals and information memoranda we reviewed
were disseminated in a timely fashion. However, we did identify some weaknesses in
this area.



                                           11

Some action transmittals and information memoranda      were not disseminated   in a

timely fashion.


Appendix C lists eleven action transmittals which were issued close to or after their

effective date. Most of these relate to systems and data reporting, critical aspects of

program implementation.      The delays in issuing the transmittals gave the States and

political subdivisions very little lead time to undertake the complex task of revising

their computer systems and begin capturing data.


In addition, as we noted in the earlier section on data collection, an Action

Transmittal (AT-91-17), improperly extended the submission due date for the JOBS

Program Participation Data Collection Information (FSA-108) to 60 days. This is

contrary to the Federal Regulations which require States and political subdivisions to

electronically submit data no later than 45 days after the end of the sample month

[45 CFR 250.80(a)(l)].


MANAGEMENT          INFORMATION


The ACF Headquarters has not systematically validated or analyzed information from

field reviews, State Plans, and data collection System$ nor has it routinely

disseminated management information to Congress, Federal and State managers,

policy makers, and advocacy groups.


The ACF Headquarters has worked with the States to develop several information

initiatives. However, we found weaknesses both with the data itself and with the use

being made of it.


   �	
        % ACF Head@atiem has not adequately validated and ana@xi           information
        submitted by the States

        The ACF Headquarters utilizes several means of analyzing information
        submitted by the States. Computer edits point out coding and transmission
        errors in State data. Consistency checks are used to compare total fields with
        information contained in the data elements to ensure uniformity. Acceptable
        ranges for data are established based upon historical data parameters that the
        States previously reported. The FY 1992 field review process involved
        reviewing a sample of case files against JOBS Program Participation Data
        Collection Information (FSA-108). However, while the field review process
        does validate case file information from one or two County offices within a
        State against the data submitted by that office, the review is too limited in
        scope (less than 100 cases total at two sites) to adequately determine if States’
        data is accurate. It should also be noted that the FY 1992 field reviews were
        conducted in less than half of the States.




                                             12

�
    % ACF Headquarter has not routidy          dkwrnika ted management informatiim in
    a usejhl foimat to those who need it

    Management information has not been made routinely available to Federal and
    State managers, policy makers, the Congress, and advocacy groups. Agency
    products, such as summary statistical reports on participation, outcomes,
    characteristics of State Plans, demographic information about participants, and
    “interesting practices” are useful to Congress, HHS components, ACF
    Headquarters/regional    offices, States, and advocacy groups in their research and
    planning activities. This information has not been widely disseminated within
    and outside the Department.




                                         13

                          RECOMMENDATIONS


As indicated in the background and findings sections, we recognize the difficulties
faced by ACF and its success in issuing the implementing regulations and providing
the initial structure for monitoring the program. Nevertheless, we believe that certain
improvements, which are the responsibility of ACF Headquarters, require immediate
attention.

Specifically,   to    address the problems identified above, ACF should

    develop adequate processes to monitor States for compliance with their State Plans
    and JOBS program requiremen~,

    review and clari.tj the purpose of existing monitoring initiatives and strengthen the
    policies and procedures guiding their administratiory

        In particulq       with respect to jield reviews:

        �	
                 provide field review guides to the regional offices by the second quarter
                 of the fiscal year to allow sufficient lead time to schedule, conduct, and
                 complete these reviews;

        �	
                 ensure that field review reports to the States are prepared and released
                 in draft for their comment within 90 days of the field review visit;

        �
                 provide guidance to the regional offices on requiring States to submit
                 corrective action plans to address problem areas identified during field
                 reviews; and

        �	
                 provide guidance to the regional offices to ensure that problem areas
                 identified in the field reviews are being corrected.

        Wtih respect to data collection

         �	
                     continue to work closely with regional offices and States to ensure the
                     accurate, timely, and complete submission of data; and

         �
                     establish deadlines for the correction and finalization of States’ data.

    systematically reassess the specific needs of the States for technical assistance and
    provide a timely and appropriate response;

    ensure that action transmittals and information memoranda conform with Federal
    law and regulations and Ageney policieq



                                                    14

   allow 60 to 90 days lead time, whenever posslkde, for the effective dates of action
   transmittals and information memorand~

   develop a systematic analysis plan for JOBS program information    available from
   field reviews, State Plans, and data collection Systew, and

   disseminate program information and data analysis through timely reports on
   varied program elements to Federal and State managers and policy makers.

AGENCY     COMMENTS       AND OIG RESPONSE

The ACF has agreed with most of our recommendations and has outlined specific
actions it has planned or already taken to implement them. Their one major
reservation concerns monitoring. They believe that it would be prudent to delay a
final decision on these findings and recommendations until the second phase of the
inspection--Regional Offices and States’ Perspectives--has been completed.

We continue to believe that our findings and recommendations represent concerns
that should be addressed in Headquarter’s operation of the JOBS program.
Nevertheless, we accept ACF’S suggestion to delay final action on monitoring until the
second phase of our study is done.

The ACF also expressed concerns about some of our findings and wished to
emphasize numerous positive actions they have taken on matters addressed in our
report. We wish to emphasize that we agree that ACF has taken aggressive action to
implement the JOBS program. We highlighted this in the Executive Summary and in
the introduction to our findings. We have provided some additional examples of their
actions in this final version of the report. Space and presentation style simply do not
allow us to enumerate everything which ACF has done. For more examples, we invite
the reader to read ACF comments, which are provided verbatim in Appendix D.
However, it should be noted that the purpose of this report was to point out areas
needing further attention. Such areas for improvement inevitably arise no matter how
intensively management attempts to deal with complex problems.

We made other modifications to the report in response to ACF’S comments.        Again,
the full text of their comments is contained in Appendix D.

We understand that ACF has recently established several task forces, one of which is
to address monitoring and technical assistance. We believe that this is a positive step
and hope that the information in this report will be useful to the task force addressing
these functional areas.




                                            15

                         APPENDIX                  A





   Connecticut       I   05/91   I     09/91        I       4 months

      Maine          I   04/91   I     08/91        I       4 months

  Massachusetts      I   03/91   I     06/91        I       3 months

 New Hampshire       I   03/91   I     06/91        I       3 months

   Rhode Island      I   07/90   I         12/90    I       5 months
     Vermont         I   06/91   I         10/91    I       4 months




     Delaware        I   03/91   I         10/91    I       7 months
District of Columbia I   02/91   I         10/91    I       8 months

     Maryland
           04/91             02/92            10 months
   Pennsylvania
     I   09/91   I         07/92        I   10 months
      Virginia
      I   08/91   !         04/92        I    8 months

   West Virginia
    I   09/91   I         06/92        I    9 months



     Alabama
            04/91             07/91             3 months
      Florida
           02/91             05/91             3 months
      Georgia
           10/90             01/91             3 months
     Kentucky
           09/91             01/92             4 months
     Mississippi
        06/91             09/91             3 months
  North Carolina
    I   09/91   I         03/92        I    6 months

  South Carolina
        04/91             07/91             3 months


                                     A-1
II    Tennessee      I    05/91   I         10/91     I   5 months




II      Illinois          07/91             09/92         14 months

II     Indiana            09/91             10/92         13 months
       Michigan           09/91             09/92         12 months
      Minnesota           08/90             11/90          3 months

II       Ohio             06/91             09/92         15 months

II    Wisconsin      I    08/90   I         12/90     I    4 months


       Arkansas           03/91             05/91          2 months
      Louisiana           08/91             01/92          5 months
     New Mexico           06/91             09/91          3 months
      Oklahoma            09/90             03/91          6 months
        Texas             09/91             12/91          3 months



II       Iowa        I    09/90 \           04/91     I    7 months

II      Kansas       I
   06/91   I   Not Released*   I   19 + monthsl

II     Missouri
          08/91             01/93         17 months

II     Nebraska      I
   09/91   I   Not Releasedl   I   16 + monthsl


       Colorado
          08/90             01/91          5 months
       Montana
           07/91             02/92          7 months

II   North Dakota
        07/91             12/91          5 months

II   South Dakota
        04/91             10/91          6 months
         Utah
            03/91             10/91          7 months
       Wyoming
           09/91             05/92          8 months


                                      A-2
     Arizona      I   03/91   I      05/91   I   2 months     II

II   California   I   08/90   I      11/90   I   3 months     II

      Hawaii          07/91          12/91       5 months

      Nevada          02/91          02/91       O months



      Alaska          06/91          09/92       15 months

       Idaho          04/91          01/92        9 months


II    Oregon      I   07/91   I      07/92   I   12 months    II





                                  A-3

               APPENDIX            B




  1st
Quarter
FY 1991   25   11   15         0       4   11   6
  2nd
Quarter
FY 1991   37   8    6          1       1   5    1
  3rd
Quarter
FY 1991   30    9   12         1       2   4    0
  4th
Quarter
FY 1991   34   10   7          0       1   2    0
  1st
Quarter
FY 1992   32    9   104        0       1    4   0
  2nd
Quarter
FY 1992   37    5    P         o       0    2   0
  3rd
Quarter




                         B-1
                        APPENDIX                C





                                     JOBS Systems Information

                                     Data Reporting-Implementation of

                                     Quarterly Information Collection of JOBS

 AT-90-1     01/31/90    10/01/89    Program Participation (Form FSA-104)

                                     Data Reporting-Implementation of Annual

                                     Report of Target Group Expenditures Under

 AT-90-2     02/06/90    10/01/89    the JOBS Promam fForm FSA-302)

                                     Data Reporting-Implementation of Statistical

                                     Report on Recipients Under Public Assistance

                                     Programs (Form FSA-3637) and Data

                                     Reporting-Implementation of Monthly Flash

                                     Report of Selected Program Data

 AT-90-8     05/11/90    10/01/89    (Form FSA-36451

                                     Data Reporting-Implementation of Quarterly

                                     Participation Rate Statistical Report

AT-90-11     09/07/90    10/01/s9    (Form FSA-103)

AT-90-14     10/10/90    07/01/89    JOBS Training Program Systems Information

                                     Data Reporting-Coding of Missing Data on

                                     the JOBS Program Participation Data

AT-91-22     12/06/91    10/01/91    Collection Form (Form FSA-108)

                                     Data Reporting-Implementation of Quarterly

                                     Report of Title IV-F Expenditures, Uniform

AT-91-23     12/26/91    10/01/91    Reporting Requirements (Form ACF-332)

                                     Data Reporting-Implementation of Uniform

                                     Data Collection and Reporting Requirements

                                     for Tribal Grantees, Tribal Jobs Program

 AT-92-1     01/14/92    01/01/92    Quarterly Report (Form ACF-114)

                                     Pre-printed Guide for the JOBS State Plans:

 AT-92-3     02/28/92    02/28/92    FY 1992 Biennial Update

                                     Data Reporting-Implementation of Child Care

CC-AT-92-1   04/06/92    10/01/91    Reporting Requirements (Form ACF-115)





                                    c-1
        APPENDIX    D

ADMINISTRATION FOR CHILDREN AND
      FAMILIESCOMMENTS




              D-1
.=29-      -                              ..       .._._....— -—
                                                               ——.
                                                                   ADMINISTRATION FOR CHILDREN AND FAtilLII
                                                                   Offlceof the Assistant Secreta~, Suite 600
                                                                   370 L’Enfant Promenade, S.W.
                        June   28, 1993                            Washington, D.C. 20447

         TO:            Bryan     B. Mitcheu
                        Pr~nci,pal    D pu        Insne          r General

         FROM :
        Laurence       .    e
                        Acting     Ass<st  nt Se retary            for
                             Child’ #+ n and Families

         SUBJECT :
 Response to OIG Draft Report: ‘JOBS Monitoring and

                    Technical Assistance: Headquartersi Role,”

                    OE1-07-92-00380



         Thank YOU
 for the opportunity to”coxmnenton this draft renort.
         We.believe     the     repo~t is an ‘tiprovementover the working ;ersion                           .
         “in providing a more balanced description of the Administration
          for Children and Families’ (ACF) monitoring tid technical
          assistance    efforts      to states for the Job Opportunities     and Basic
          Skills Training         (JOBS) program.                        .
                                                                         ..+

             However, we still have a major concern with the OIG’S methodology

             of separately reviewing Central Office (CO) and Regional Office

            ...(RO)
administration of JOBS. AS th”ereport itself acknowledges,
         .,~.~eOIG does not have a complete picture of,ACl? activities   s.i.nce
        :..::;t”has   riot Completed phasetwo of thestudy.  Yet many:of the
          :reCo~endationS--Darticularly                  those     relative      to monitoring--if
         ‘adopted      would     sigfiificantly       affect     ItO operations.        We believe
           that   the OIG would be in a better                  position     to dete~ine          if such
         ‘recorrunendations          (and/or    others)      are necessary         once  it completes
           phase    two of the study.

          Our response is organized by the sections of the OIG report.


         ‘MOliITORING              ,


          As stated above, we believe that the section on monitoring-­

          specifically on the subject of the field review  process--is the
          most troublesome for two reasons which we elaborate on below.
          First, the report does not give sufficient  recognition to ACF
          Policy on the respective roles of CO and RO’S in conducting
          program reviews. Second, it seems to assume that if CO did not
          issUe a written directive on how to carry  out a review,  RO’S may
          not have conducted reviews in a professional manner.

           The specific approach to monitoring JOBS and the respective roleS
           of CO and the ROlS were established by the Assistant Secretary as
           follows:




                                                          D-2

   .


 Page 2 - Mr. Bryan B. Mitchell

                 all  States would be reviewed during FY 1990 and FY
                  1991;

                  field reviews would be a broad look at management,

                  client flow, financial operations, systems, and child

                  care;


                 field reviews at this early point in implementation

                 would be geared to gaining information and identifying

                 potential problems;


                 ACF would be explicit with States that the reviews were

                 not compliance reviews; and


                  Regional Offices would”have lead responsibility for

                  conducting the reviews, but that CO would review draft

                  reports narrowly for “accuracy and sensitivity” given

                  the high profile of the JOBS program.

 Lead responsibility for conducting reviews means that the RO

 establishes the schedule for the review, makes all arrangements,

 writes the report, issues it (after CO review for accuracy and

 sensitivity) , receives comments, and follows up as appropriate.


...As a result         it i.s highly       likely      that     the OIG will.       find   a range     of
..,procedures        in the Regional           offices       when itconducts.that.part                of
  the     review.        Such variations          may reflect          the experiences         of the
..Regional        Administrator,         the resources           available        to the Region,        or
   the nature        of the revi,ew        that     was conducted.             That   i.s different
   from the implication              in the draft          report      that    AC??’S lack      of a
   national       policy     and written         procedures         means that      no opportunity
   for comment         i,s provided      or that Regions             do not follow-up           on the
   results       of field      reviews.        We believe         that     such findings        and
   recommendations           should     only be made after               the IG conducts          its
   review      of RO operations.

  we do agree         with  the OIG that        there    were delays        in i,ssuing      some
  of the FY 1991 reports.                We believe      much of the delay          was
  attributable         to the comprehensive           nature     of the reviews         that   were          ~
  conducted        and that     narrower     reviews     conducted        in subsequent       years
  addressed        the problem       of timeliness.          Nevertheless,       this     is an
  area     that”we     will   look at more carefully.

  TE~IcAL         ASSISTM?CE

  In general, the report suggests that the Technical Assistance
   (TA) contract was the only vehicle by which ACF provided TA to
  State JOBS programs. The JOBS TA contract has been the primary
  vehicle by which co has provided TA directly  to states, but nOt
  the only  one.  For example, shortly after the publication of the
  final regulations, the Office of Family Assistance held a major

                                                   D-3

 Page 3 - Mr.   Bryan B. Mitchell

 conference for over 700 Federal, State and Tribal officials to

 provide operation and policy guidance for the JOBS program.

 However, the RO’S also have major responsibility for providing

 ongoing TA to States. They have conducted meetings with their

 respective States and provided operational guidance to States on

 a regular basis.


 The report states on page nine that in less than one month the

 scope of work of the contract changed. This is misleading. The

 November 1990 memo to the Regional Administrators indicated that

 HHS was working with the Departments of Labor and Education,to

 establish priority areas under Tasks 1 and 2 (assistance to

 program managers, assistance to providers) . Once the priority

 areas were identified and amounted in the December memo to the

 Regional Administrators, we no,longer used the terms Tasks 1

 and 2. We focussed our assistance under the priority areas and

 targeted first year efforts to program managers.


   The report indicates on page 10 that only one priority area was

   addressed in FY 1991 through the conduct of six regional

   workshops on program design. This is inaccurate. The regional

   prograxndesign workshops (attended by 49 States and 4

   jurisdictions) also emphasized interagency coordination

  strategies including State discussion forums on coordination. In

 ~..addition,the contractor assisted the Department of Education in

..designing and facilitating various sessions at a national

  conference for all so States to promote coordination among adult

   and vocational education, JOBS and JTPA programs. In.addition,

   the contractor completed Task 3--prepared and distributed a

   General Systems Design and Data Element Dictionary to States and

   conducted various on-site State visits.


  In addition to the FY 1992 and FY 1993 deliverables listed in the

  report, the contractor also developed an agency

  cul,tural/structural change training curriculum for IV-A/IV-D/

  IV-F workers, provided on-site assistance to four States, and

  developed and distributed to 43 States and jurisdictions copies

  (in final draft) of Volumes I and II of a coordination handbook

                                                                       . .
  ‘Meeting the Challenges: Coordination to Promote Self-
  Sufficiency. n                                                  -...

  The report is correct in saying that the contractor did not

  address all of the subjects requested by States. We believe that

  it is entirely appropriate for ACF (in conjunction with its

  partners- -the-De&t~ents   of Education and-Labor) to consider

  requests for technical assistance and determine the best way to “

  meet those needs. That might be the contract or it might be

  internal  technical assistance. We believe that as to the
  subjects  identified by the States--child care, teen parents,
  systems,  and data--such decisions were made.


                                    D-4

.



Page 4     - Mr. Bryan B. Mitchell


For example, ACF determined that technical assistance relative to

data collection for JOBS could best be delivered by ACF.staff who

had developed the reporting requiraents.   Therefore, CO staff

res~onsible for JOBS data collection made presentations at the

national JOBS conference and numerous regional conferences and

has provided individual assistance to Regional Offices and States

on an on-going basis.


In the area of systems, the contractor did develop a General

Systems Design and Data Element Dictionary under Task 3.


As to teen parents, it is inaccurate to say that the contractor

did not provide assistance. A session specifically devoted to

teen parent programs was included at all the first year’s RO

program design workshops. In addition, ACF has continued to

address teen parent issues through the field review process,

specific policy guidance and identification of promising practice

models.


    As to child care, we purposely elected to have child care

    addressed by ACF staff rather than the contractor. This was due

    to the fact that two new major child care programs were passed by

    Congress in November 1990- -At Risk Child Care and the Child Care
:,Development    Block Grant--   and we believed    that    policy  issues
 relative     to child care    were the predominant      concern   of States   and
  that    ACF staff were in a better position to address those
    concerns. ACF published final regulations for these.progr-    in
    August 1992 and held a child care conference in December 1992.


    On the distribution of products developed for workshops, we
    believe that there has been broad distribution of products
    although we acknowledge that some of the products should have
    been released more timely. Kll States and territories (except 1)
    attended the program design workshops in FY 1991 and received

    many products that the contractor had developed; forty-three

    States/territories attended regional workshops beginning in -Y

    1992 where they received the final draft of Volumes I and II Of

    the Coordination Handbook. The final version of the Coordination -

    Handbook was then distributed to all 54 States/territories in ..

    November 1992. The General Systems Design and Data Element

    Dictionary was distributed to all States in August 1991.


    PROGWM GUIDANCE

    The ACF acknowledges that some action transmittals and

    information memoranda were not issued prior to their effective

    date or were issued without much lead time. However, we believe

    that in most instances the timing was a result of the short lead

    time for implementation of the JOBS program which the OIG

    acknowledges in its Executive S~rY.


                                        D-5

Page 5 - Mr.     Bryan B. Mitchell

For example, the provisions governing enhanced “FFP were effective

October 1, 1989 (prior to publication of the final rules) so ACF

had to collect information back to that date even though it would

have been impossible to issue data collection reporting forms

prior to the publication of the final rules. ~us although the

forms were at OMB before October 13, 1989, they were not actually

approved and issued until early in the second quarter of

FY 1990--less than four months after the final rules were

published. It should be noted that while the forms were late for

the States that elected to start early, for the rest of the

States the reporting forms were issued prior to their

implementation of the JOBS program.


As to the eleven specific Action”TransKd-ttals (AT) and

Information Memoranda (IM) cited by the OIG, we believe that it

is misleading to characterize some of them as ‘delayed

instmctionson   AT’s 89-41 and 90-14 do not contain instructions.

They provide information about systems development and provide
guidance on FFP rates for systeMS. The effective dates reflect
the earliest date for which a State could claim FFP for Systems
development, but do not impose any requirement  on States to
retroactively           report    data.    In the case of AT-92-3       on the FY 1992
Biennial        update,     while    the effective   date   was also    the date     it
was issued         (2/28/92),      States    were not required    to   submit  their
plans     until     July     1, 1992.

ACF RESPONSE To SPECIFIC           RECOMMENDATIONS

OIG Recommendation


ACF should develop adequate processes to monitor States for

compliance with their State Plans and JOBS program requirements.


ACF Res~onse


 Each year ACF determines its strategy for conducting JOBS reviews

 considering the priorities of the Assistant Secretary and the

 resources available to Central Office and the Regional Offices. “-

 AS ACF prepares its FY 1994 strategy, we will carefully consider. .

 the OIG’S recommendation.


 OIG Recommendation


 ACF should review and clarify the purpose of existing monitoring

 initiatives and strengthen the policies and procedures guiding    “

 their administration.





                                            D-6

.


    Page 6 - Mr.        Bqan     B. Mitchell

    ACF Resuonse


    We agree with the importance to provide guides early enough to

    plan reviews in quarters 2, 3 and 4. We provided the ~ 1993

    guide to the regions on February 2, 1993 for that reason.


    As to the specific          recommendations    about    issuing     written
    directives        to ROIS on how to conduct       field    reviews,      we believe
    that     it would be prudent       to wait  for the findings         of the second
    phase      of this   review    to determine   whether     such guidance       is
    required.

    OIG Recormnendation


    ACF should work closely with regional offices and the States to

    ensure the accurate, timely, and complete submission of data.


    ACF Resnonse


    ACF cannot find anything in the findings section of the OIG

    report to suggest that it has not worked closely with RO’S and

    States to improve data collection. We believe that the OIG will

    find when it conducts phase two of this investigation that CO has

    worked very closely with ROIS and States. We will continue to do

    so.

    We note that one of our efforts to work closely with the States

    to ensure better data--extending the deadline for submission of

    the FSA-108 from 4S days to 60 days --is criticized by the OIG in

    this report. Discussions with States had indicated that 45 days

    was not enough time to submit the required data. Therefore, we

    believed that it was a reasonable accommodation to give the

    States an additional 15 days to submit even if this was

    inconsistent with the Federal regulations.


    OIG Recommendation


    ACF should         egta.bli.sh   deadlines     for   the   correction     and
                                                                                                     . .
    finalization          of States’     data.
                                                                                                -.
    ACF Res~onse


     ACF agrees that JOBS data collection has been in place 10ng

     enough now to establish such deadlines. We will consult with

     RO’S and States on establishing reasonable deadlines and will

     give States sufficient notice of the deadlines.


     OIG Recommendation


     ACF should        systematically         reassess    the specific      needs    of   the
     States      for   technical      assistance       and provide     a timely     and
     appropriate         response.
                                                  D-7

    .

.

        Page 7 - Mr. Bryan B. Mitchell”


        ACF Resnonse


        ACF will       continue       to assess     the specific           needs      of States        for

        technical       assistance        and provide        as timely        response         as feasible.

        ACF will       use various        vehicles      to identify          State      needs     including

        field     reviews,       State    surveys     by contractor           and ROIS, TA request

        sheets      at conferences          and specific        State      requests        either      to ACF

        or the contractor.              AS a result        of our ongoing             efforts,       we have a

        number      of initiatives          underway      and planned          for FY 1993          (in and

        outside       of the TA contract)            including       a National           JOBS Directors

        Conference,         various      on-site     individual        State      visits,        special

        topic     informational          packets    and workshops            and a databank

        directory        of proxni.si,ng      iJOBS and child         care     State/local          practices.


        OIG Recommendation


        ACF should       ensure      that    action     transmittals         and information
        memoranda       conform      with    Federal      law and      regulations     and Agency
        policies.

        ACF Resnonse


        ACF agrees.  We believe that our decision to give States an
        additional 15 days beyond what is specified in the regulations
        to submit data was a reasonable response-to the problems States
        were having meeting the 45-day deadline.

        PIG Recommendation


         ACF should allow 60 to 90 days lead time,                         whenever   possible,          for
         the effective dates of action  transmittals                        and information
         memoranda.



         ACF agrees.    whenever            possible,        we will     allow     60   to   90 days    lead
         time   for the effective            dates      of   action    transmittals          and
         information   memoranda.                                                                                    . .
                                                                                                               -..
         OIG Recommendation

         ACF should develop a systematic analysis plan for JOBS program

         information available from field reviews, State plans,
                                                         —      and data

         collection systems.

         ACF Resnonse


         ACF agrees. We believe that JOBS has reached a level of maturity

         where such analysis will be useful.



                                                         D-8

Page   8 - Mr.     Bryan B. Mitchell

OIG Recommendation


ACF Should     disseminate      program     information      and data   analysis
through   timely     reports    on varied      program    elements    to Federal   and
State   managers     and policy     makers.

ACF ResDonse

ACF has provided large amounts of information to a wide audience.

However, we agree that management information has not been

disseminated in a systematic manner. With the maturity of the

JOBS program, we agree that it is now appropriate to do so and we

are developing some reports that would accomplish that goal.


Zec hnical comments

Page ii:	 The second sentence in the third paragraph under

          MONITORING minimizes the dimensions of the early

          reviews. It also incorrectly makes staff rather than

          management responsible for defining the ACF strategy

           (the same point applies to the second paragraph from

          the bottom of page 6). We offer this as a replacement

          paragraph:


               ‘ACF believed it was premature to conduct

               compliance reviews during the early stages of

               implementation when it was more important to

               conduct comprehensive reviews to provide for a

               baseline understanding of how the program wer@

               operating. Reviews in FYs 1990 and 1991 examined

               supportive semices, child care, data collection

               and systems as well as JOBS.”

 Page 4:	      In the first paragraph under Field Reviews, we suggest

               that the second sentence be revised in this way:


               In FYs 1990 and 1991, reviews were comprehensive

               in nature, covering child care, supportive
                                 ..

               senices, systems, and data collection as well as

               JOBS .                                                                    -.


 Page 5:	        The fourth sentence in the first paragraph hypothesizes

                 that RO’S may have been reluctant to use the draft

                 guide and in the next sentence says that regions

                 ‘deferred” their field reviews until issuance of the

                 final guide. However, it is not clear how the OIG      “

                 knows this since it has not interviewed RO’S yet.

                 Indeed in the letter issuing the guidance to ROIS on

                 March 30, 1992, the Director of the Office of Family

                 Assistance specifically tells ROIS to use the guide and

                 asks for a schedule of planned reviews. We suggest

                 that the fourth and fifth sentences be deleted.

                                             D-9
,.

     .

     page       9 - m.     Bqan   B. Mitchell

         page   6:   The  next to last paragraph    minind.zes the importance and
                     the level of detail of the n 1991/1992 ‘eviewsf~~ what

                                                   to simply get a feel

                     saying that they were    “...

                     was happening.. .” We recomend referring to the

                     breadth and depth of the reviews. Further, wh~l~ the

                     reviews were not designed specifically for compliance

                     purposes, instmctions were       that whenever coqliance

                                                 they were to be addressed.

                      issues were identified,




                                                                                          . .

                                                                                    -..         .




                                                D-10

